                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A11010003                                                                        Page 1 of 1



                We assessed an allegation of misconduct in NSF -supported research. 1 The allegation
         resolved into several separable issues.

                Allegation 1: Misconduct related to invention of certain compounds and a subsequent
         publication that explored potential applications. Based on our review, we determined that the
         publication in question did not improperly claim inventorship or design of the compounds. The
         invention was properly filed and a separate publication described the design and synthesis of the
         compounds. Part of this allegation was an issue of proper authorship on the applications
         publication. The authorship issue identified was not deemed to be research misconduct under
         NSF's definition.

                 Allegation 2: Suppression of results in an annual report to NSF. Based on our review,
         we confirmed that research results contributed from one scientist within a collaborative effort
         were not included in annual reports to NSF. Although these results indicated findings and a
         differing interpretation which were later supported by a publication from colleagues (see
         Allegation 3), we concluded that the omission from the report does not constitute suppression.
         The allegation characterized the omission as falsification; we concluded that the decision not to
         include the results was reasonable at the time, and did not constitute falsification.

                  Allegation 3: Misconduct related to a later publication which improperly took credit for
         earlier "suppressed" results (Allegation 2). The later publication provides some support for the
         earlier results and interpretation. However, the data in the publication are results from the effort
         of listed authors, and credit to earlier work was provided. We conclude that there is no research
         misconduct.

                 Allegation 4: Improper investigation of allegations by a grantee. The complainant raised
         several issues related to actions by the grantee, which previously reviewed the matter and
         concluded there was insufficient merit to further investigate. This is not an issue of research
         misconduct that our office would investigate.

                We conclude there is insufficient merit to the allegations to further investigate these
         matters. Therefore, this case is closed.




NSF OIG Form 2 (11/02)
